           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



          BENEFITS PAID
       TO DUALLY ENTITLED
      TITLE II BENEFICIARIES


     August 2006   A-01-06-26004




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM


Date:   August 7, 2006                                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Benefits Paid to Dually Entitled Title II Beneficiaries (A-01-06-26004)



        OBJECTIVE

        Our objective was to determine if dually entitled Title II beneficiaries were entitled to the
        benefits paid to them.

        BACKGROUND
        The Social Security Administration (SSA) administers the Old-Age, Survivors and
        Disability Insurance program under Title II of the Social Security Act.1 The program
        provides monthly benefits to retired or disabled workers and their families and to
        survivors of deceased workers.

        DUAL ENTITLEMENT

        Dual entitlement exists when a beneficiary is entitled to more than one benefit at the
        same time. For example, a beneficiary may be entitled to retirement benefits on his or
        her own earnings record and spouse’s benefits on another person’s earnings record.
        Although a beneficiary may be simultaneously entitled to more than one benefit, the
        total benefit may not be greater than the highest single benefit amount to which he or
        she is entitled. Generally, SSA calculates the amounts due and combines the benefits
        into one monthly payment.2 In December 2004, about 6.4 million retired or disabled
        workers were entitled to receive benefits on multiple records.3

        1
            Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
        2
         SSA, POMS, GN 02401.025. Generally, benefits are combined into one monthly payment unless they
        are derived from different trust funds.
        3
         This includes 6,229,670 retired workers and 201,468 disabled workers who were dually entitled. See
        SSA Annual Statistical Supplement, 2005 (Table 5.G1), issued February 2006 and Annual Statistical
        Report on the Social Security Disability Insurance Program, 2004 (Table 25), issued March 2006.
Page 2 - The Commissioner


ADMINISTRATIVE FINALITY

Once SSA determines the payment amount due a beneficiary, that determination may
be reopened and revised later under certain conditions. The discretionary rules that
SSA uses to reopen and revise determinations are known as the rules of administrative
finality. Generally, under administrative finality, SSA will only revise an incorrect Title II
benefit calculation which resulted in payment of more benefits than were due if the error
is discovered within 4 years.4 Conversely, if the error is discovered after 4 years, the
Agency will not adjust the payment amounts.

If administrative finality is applied, an adjustment will only be made when SSA makes a
new payment determination—such as when benefits are converted from disability to
retirement upon a beneficiary’s attainment of full retirement age.5 If a new
determination is not made, the payment amounts will not be adjusted and will continue
until death. According to SSA, these rules protect beneficiaries from the inconvenience
or hardship that could result from the correction of an Agency error.6

METHODOLOGY

During a prior audit, we identified situations in which it appeared benefits to dually
entitled beneficiaries were not correctly adjusted and, as a result, overpayments went
undetected.7 For this reason, we initiated our current review. To accomplish our
objective, we identified a population of 1,560 beneficiaries whose benefit payments
appeared to exceed the maximum amount they were entitled to receive. We randomly
selected 200 records from this group for detailed analysis and requested the assistance
of SSA’s Office of Operations to review the payment amounts and take corrective action
as needed. (For additional information about our scope, methodology and sample
results, see Appendix B.)




4
 In some situations, revisions may be made beyond 4 years (for example, if fraud is involved). See
20 C.F.R. §§ 404.987-404.996. See also SSA, POMS, GN 04020.
5
 SSA does not currently have written guidance that specifically instructs staff to correct errors in the
payments (which were previously barred from correction under administrative finality) when disability
beneficiaries attain full retirement age and their benefits are converted from disability to retirement
benefits. However, SSA’s Office of Payment Policy informed us in February 2006 that instructions were
being developed.
6
    SSA, Benefit Authorizer Basic Training Program, Administrative Finality (BA-08, 2003-1), p. 387.
7
 SSA OIG, Individuals Receiving Benefits Under Multiple Social Security Numbers at the Same Address
(A-01-05-25002), April 2005.
Page 3 - The Commissioner


RESULTS OF REVIEW
Generally, we found the beneficiaries in our population were not entitled to all of the
benefits paid to them. Based on the results of our sample, we estimate that SSA
incorrectly calculated the payment amounts that were due to about 1,412 beneficiaries.
In many cases, the errors occurred when SSA employees took action to combine
benefits from separate records into one monthly payment. We estimate the total effect
of these calculation errors is approximately $37.6 million, including about $23.0 million
in benefits already paid by SSA and about $14.6 million in future benefit payments.

The estimated $23.0 million includes:
         about $15.3 million that was paid to beneficiaries and is subject to recovery
          efforts; and
         about $7.7 million that was paid to beneficiaries but will not be recovered
          because SSA applied its administrative finality rules and the records were not
          adjusted.

Further, the estimated $14.6 million includes:
         about $4.3 million that will be paid over the next 12 months unless the Agency
          takes action to correct the payment errors; and
         about $10.3 million that will be paid until the beneficiaries attain full retirement
          age or die, because SSA applied its administrative finality rules and the records
          were not adjusted.
SAMPLE RESULTS

                   200 Sample Cases
                                                    Of the 200 cases we sampled:

                          6 Pending (3%)
                                                       145 had improper payments and, as a result
     13 No Error                                        of our review, the Agency took corrective
     Found (6%)                                         action and assessed about $2.0 million in
                                     145 Overpaid
                                        (73%)
                                                        overpayments;8
      36 Not                                           36 were not adjusted because of
     Adjusted                                           administrative finality;
      (18%)
                                                       13 did not involve payment errors;9 and
                                                       6 cases were still being reviewed by SSA as
                                                        of July 2006.


8
    As of July 2006, SSA recovered about $261,000 (or 13 percent) of the assessed overpayments.
9
  This includes 5 cases in which incorrect Social Security numbers were posted on the benefit records
(and the beneficiaries were not actually receiving benefits on more than one record). In 5 other cases,
the combined benefits were not higher than what the beneficiary was entitled to receive. For the
remaining 3 cases, the Agency netted the beneficiaries’ overpayments with the underpayments that were
due other beneficiaries on the records and no net overpayments resulted.
Page 4 - The Commissioner


Dual Entitlement Payments Corrected Based on Audit
In total, 145 beneficiaries in our sample were incorrectly paid approximately $2.0 million.
We estimate SSA would have paid about $556,565 to these beneficiaries over the next
12 months if the payment errors were not corrected.

For example, one beneficiary was dually entitled to both a retirement benefit and a
spouse's benefit beginning in April 1996. Because the two benefits were derived from
the same trust fund, they were combined and issued as one monthly payment. In
November 2002, upon the death of the beneficiary's husband, an SSA employee took
action to convert the spouse's benefit to a widow's benefit and added the additional
benefits due her to her retirement benefit payments. However, at the same time, the
employee incorrectly initiated widow's benefit payments on the deceased's record. As a
result, the widow's benefit was paid twice. Based on our audit, the Agency corrected
the records and assessed an overpayment of $25,477. We estimate SSA would have
overpaid this beneficiary about $8,796 over the next 12 months if the payment error had
not been corrected.

In another case, a beneficiary was dually entitled to both a disabled worker’s benefit and
a widow's benefit beginning July 2000. The two benefits were paid separately because
they were derived from different trust funds. In November 2003, the beneficiary attained
her full retirement age and her disability benefits were converted to retirement benefits.
Because retirement benefits and widow's benefits are derived from the same trust fund,
an SSA employee took action to combine the benefits into one monthly payment.
However, the employee did not stop the benefit payments that were being issued on the
other account and, as a result, the widow's benefit was paid twice. Based on our audit,
the Agency corrected the records and assessed an overpayment of $27,301. We
estimate SSA would have overpaid this beneficiary about $13,296 over the next 12
months if the payment error had not been corrected.

Benefits Not Adjusted Because of Administrative Finality
In 36 cases, Agency staff invoked administrative finality and the payment amounts were
not adjusted.10 We estimate these individuals were paid about $1.0 million more than
they would have been paid had the errors not occurred. However, because of
administrative finality, the Agency will not recover these funds. Further, because the
ongoing benefit amounts were not adjusted, SSA will pay about $1.3 million to these
beneficiaries that they would not otherwise be entitled to receive if the calculation errors
had not occurred.11


10
  We did not determine whether SSA staff applied administrative finality in accordance with the Agency’s
policies. We plan to conduct further research in this area and may initiate a separate audit of
administrative finality in the future.
11
   Our calculations assume the higher benefits will continue to be paid until: (1) the disability beneficiaries
attain full retirement age and SSA makes new payment determinations, or (2) the retirement beneficiaries
die. For our estimates, we used the life expectancies as reported by the Center for Disease Control
(National Vital Statistics Report, Vol. 54, No. 14, April 19, 2006, Tables 2 and 3).
Page 5 - The Commissioner


For example, in November 1998, an SSA employee combined a beneficiary’s retirement
and survivor’s benefits into one payment but did not take action to stop the survivor’s
benefit that was being paid on another record. Because the error was not detected until
our audit and more than 4 years had elapsed, SSA staff invoked administrative finality
and did not adjust the benefits. We estimate the Agency paid this individual about
$17,866 more than she would have been paid had the calculation error not occurred.
Further, because the payments were not adjusted, we estimate the Agency will pay the
beneficiary about $41,907 more in benefits until her death.

In another case, SSA incorrectly calculated the benefits due a beneficiary who was
entitled to receive both a disability benefit and a widow’s benefit beginning in
January 1995. Because the error was not detected until our audit and more than
4 years had elapsed, SSA invoked administrative finality and did not adjust the benefits.
We estimate the Agency paid this individual $24,672 more than she would have been
paid had the calculation error not occurred. In addition, because the ongoing payments
were not adjusted, we estimate SSA will pay the beneficiary about $13,020 more until
she reaches full retirement age (in January 2011). At that time, the Agency will make a
new determination of payments due when her disability benefit is converted to a
retirement benefit and the benefits may be adjusted.

CONCLUSIONS AND RECOMMENDATIONS

Generally, we found the beneficiaries in our population were not entitled to all of the
benefits paid to them. Based on the results of our sample, we estimate that SSA
incorrectly calculated the payment amounts that were due about 1,412 beneficiaries in
our population. We estimate the total effect of these calculation errors is approximately
$37.6 million, including about $23.0 million in benefits already paid by SSA and about
$14.6 million in future benefit payments.

We recommend that SSA:

   1. Review the remaining 1,360 cases in our population to ensure that all
      overpayments are identified, recorded and pursued for recovery.

   2. Remind employees of the proper procedures to follow when combining benefits
      into one payment.

   3. Ensure payment errors are corrected when disability benefits are converted to
      retirement benefits.
Page 6 - The Commissioner


AGENCY COMMENTS

SSA agreed with all the recommendations. (See Appendix C.)




                                            S
                                            Patrick P. O'Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology and Sample Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
C.F.R.   Code of Federal Regulations

OIG      Office of the Inspector General

POMS     Program Operations Manual System

SSA      Social Security Administration

U.S.C.   United States Code
                                                                                  Appendix B

Scope, Methodology and Sample Results
To accomplish our objective:

   We researched the Social Security Act and the Social Security Administration’s
    (SSA) regulations, policies and procedures related to dual entitlement.

   We obtained from SSA a file of 7.8 million Title II benefit records that contained dual
    entitlement data and were in pay status as of May 2005.

   We analyzed the file and identified 1,560 beneficiaries whose benefit payments
    appeared to exceed the maximum amount they were potentially entitled to receive.1

   We selected a random sample of 200 records from the population for detailed
    analysis.

   We researched available data on SSA’s systems and/or referred the sample cases
    to SSA’s Office of Operations for review and corrective action.

We conducted our review between November 2005 and March 2006 in Boston,
Massachusetts. We determined that the data used for this audit was sufficiently reliable
to meet our audit objective. The principal entities audited were SSA Field Offices and
Program Service Centers under the Deputy Commissioner for Operations. We
conducted our audit in accordance with generally accepted government auditing
standards.




1
 For spouse benefits, we assumed that the beneficiary began receiving the benefits at full retirement
age. For child’s benefits, we assumed that the primary number-holder was deceased. For beneficiaries
entitled to delayed retirement credits, we assumed that they were entitled to the maximum amount of the
credit.



                                                B-1
SAMPLE RESULTS AND PROJECTIONS

Table 1: Population and sample size
Population Size                                                                    1,560
Sample Size                                                                          200


                                                                 Number of
Table 2: Cases with overpayments                                                  Dollars
                                                                Beneficiaries
Identified in Sample                                                    145      $1,965,778
Point Estimate                                                         1,131    $15,333,068
Projection Lower Limit                                                 1,049    $12,577,432
Projection Upper Limit                                                 1,206    $18,088,703
Note: All projections are at the 90-percent confidence level.


Table 3: Funds SSA would avoid paying over the next              Number of
                                                                                  Dollars
12 months if the erroneous payments are corrected               Beneficiaries
Identified in Sample                                                    142       $556,565
Point Estimate                                                         1,108     $4,341,205
Projection Lower Limit                                                 1,024     $3,808,046
Projection Upper Limit                                                 1,184     $4,874,365
Note: All projections are at the 90-percent confidence level.


Table 4: Funds SSA will not recover because administrative       Number of
                                                                                  Dollars
finality prevented the payments from being adjusted             Beneficiaries
Identified in Sample                                                      36      $981,441
Point Estimate                                                          281      $7,655,238
Projection Lower Limit                                                  218      $5,078,548
Projection Upper Limit                                                  354     $10,231,927
Note: All projections are at the 90-percent confidence level.


Table 5: Funds SSA will continue to pay because
                                                                 Number of
administrative finality prevented payments from being                             Dollars
                                                                Beneficiaries
adjusted
Identified in Sample                                                      36     $1,322,079
Point Estimate                                                          281     $10,312,215
Projection Lower Limit                                                  218      $6,506,652
Projection Upper Limit                                                  354     $14,117,779
Note: All projections are at the 90-percent confidence level.




                                                  B-2
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      July 27, 2006                                                          Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye      /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Benefits Paid to Dually Entitled Title II
           Beneficiaries" (A-01-06-26004) -- INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “BENEFITS PAID TO DUALLY ENTITLED TITLE II BENEFICIARIES” (A-
01-06-26004)


Thank you for the opportunity to review and comment on the draft report. We agree that this is
an error-prone workload. Through our own internal controls, we too have found that when
benefits are combined on one account, there have been instances where stopping the payment on
the other account was overlooked. We have been working to improve the accuracy of these and
other workloads through refresher training on recurring problem areas. In the past, we have
issued local procedural supplements to help alleviate these improper payments. Below please
find our response to the specific recommendations which describe additional actions we plan to
take to address these findings.

Recommendation 1

The Social Security Administration (SSA) should review the remaining 1,360 cases to ensure
that all overpayments are identified, recorded and pursued for recovery.

Response

We agree. We will review the remaining 1,360 cases and initiate collection actions on all
overpayments.

Recommendation 2

SSA should remind employees of the proper procedures to follow when combining benefits into
one payment.

Response

We agree. We will issue a national instruction by September 2006.

Recommendation 3

SSA should ensure payment errors are corrected when disability benefits are converted to
retirement benefits.

Response

We agree. These situations will be addressed specifically in our September 2006 national
instructions.




                                              C-2
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

   David Mazzola, Audit Manager, (617) 565-1807

Acknowledgments

In addition to those named above:

   Jeffrey Brown, Senior Auditor

   Kevin Joyce, IT Specialist

   Frank Salamone, Auditor

   Melinda Tabicas, Auditor

   Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-06-26004.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
